                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                    OFFICE OF INVESTIGATIONS

                                            CLOSEOUT MEMORANDUM

I   Case Number: A04070051
                                                                               11          Page 1 of 1



        We received an allegation1that a NSF Directorate's Assistant Director (AD) and Division
        Director @ D ) ~inefficiently managed a PI's proposal,3 and the program officer mishandled it.

        With respect to the AD and DD, we determined that both, at the request of the PI, provided
        separate reconsiderations for the PI about the handling of the proposal. Both reconsiderations
        upheld the original decision to decline the proposal. Following these reconsiderations, the PI
        was encouraged to seek a final reconsideration by NSF's Deputy Director. However, the PI said
        he could not do so because the President of his institution would not approve it, a requirement by
        NSF to proceed to the final reconsideration.

        We reviewed the program officer's handling of the proposal. We noted that the program officer
        requested seven scientists to do ad hoe reviews. After receiving three ad hoc reviews, the
        program officer sent reminders to the remaining reviewers requesting reviews for the proposal.
        However, none of the reviewers provided a review. The program officer, with the ad hoc
        reviewers' comments and the panel's advice, declined the proposal, a decision that was
        reasonable given the evaluations provided.

        Our review of the handling of this proposal revealed no evidence that anyone at NSF did
        anything inappropriate or unethical. There is no evidence that the ad hoe reviewers or panel
        members selected to examine the complainant's proposal was in any way selected
        inappropriately. Finally, the PI received reconsiderations fkom the DD and the AD, both of
        which were done according to procedures and both of which upheld the declination of the
        proposal. The PI did not receive a final reconsideration by NSF's Deputy Director because the
        PI's administration did not agree to do so.

        This case is closed and no further action will be taken.
